              OFFICES, BOARDS AND DIVISIONS
               ANNUAL FINANCIAL STATEMENT
                     FISCAL YEAR 2009

                OFFICE OF THE INSPECTOR GENERAL
                   COMMENTARY AND SUMMARY

       This audit report contains the Annual Financial Statement of the
Offices, Boards and Divisions (OBDs) for the fiscal years (FY) ended
September 30, 2009, and September 30, 2008. Under the direction of
the Office of the Inspector General (OIG), KPMG LLP performed the
OBDs’ audit in accordance with U.S. generally accepted government
auditing standards. The audit resulted in an unqualified opinion on the
FY 2009 financial statements. An unqualified opinion means that the
financial statements present fairly, in all material respects, the financial
position and the results of the entity’s operations in conformity with U.S.
generally accepted accounting principles. For FY 2008, the OBDs also
received an unqualified opinion on its financial statements (OIG Report
No. 09-18).

       KPMG LLP also issued reports on internal control over financial
reporting and on compliance and other matters. For FY 2009, the
Independent Auditors’ Report on Internal Control over Financial
Reporting identified one significant deficiency related to weaknesses in
the identification of economic factors in funding analysis. No instances of
non-compliance with laws and regulations or other matters were
identified during the audit.

       The OIG reviewed KPMG LLP’s reports and related documentation
and made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable us to
express, and we do not express, an opinion on the OBDs’ financial
statements, conclusions about the effectiveness of internal control,
conclusions on whether the OBDs’ financial management systems
substantially complied with the Federal Financial Management
Improvement Act of 1996, or conclusions on compliance with laws and
regulations. KPMG LLP is responsible for the attached auditors’ reports
dated November 6, 2009, and the conclusions expressed in the reports.
However, our review disclosed no instances where KPMG LLP did not
comply, in all material respects, with U.S. generally accepted
government auditing standards.
